DOE/IG-0445




   INSPECTION                  THE DEPARTMENT OF ENERGY’S
     REPORT                     EXPORT LICENSING PROCESS
                                    FOR DUAL-USE AND
                                 MUNITIONS COMMODITIES




                                        MAY 1999




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                                                     May 28, 1999
                                                                                                                       2

MEMORANDUM
Issues that would best
                     FORbeTHE
                           addressed
                                 SECRETARY
                                        by other agencies or an interagency task force included,
among others, whether a process is needed for the escalation of munitions cases; the concern by
FROM:
Commerce thatGregory
                 several agencies,
                          H. Friedman
                                    including
                                         /s/ Energy, did not always send the appropriate-level
representative to
                Inspector
                  meetingsGeneral
                             of the Advisory Committee on Export Policy; and the inability of the
Commerce database to process image-type information, which prevents electronic transmittal of
SUBJECT:
certain documents
                INFORMATION:
                    that support Energy’   s review
                                      Report         of exportof
                                              on “Inspection   license applications.
                                                                  the Department     This may
                                                                                  of Energy’s Export
adversely impact  the timeliness
                Licensing  Processof for
                                      Energy’ s review
                                         Dual-Use   and process.
                                                        Munitions Commodities”

Also, we found that improvements are needed in the process for determining whether an
BACKGROUND
export license is required in conjunction with assignments of foreign nationals to Energy
laboratories.
On   August 26,Specifically,       guidance of
                     1998, the Chairman          was
                                                   thenot  clear Committee
                                                        Senate     regarding when        a “deemed” export
                                                                                   on Governmental          Affairs requested
license
that  thewould     be required
            Inspectors     Generalfor    an assignment
                                      from                 involving
                                             the Departments              a foreign national.
                                                                   of Commerce,         Defense,The       term State, and
                                                                                                     Energy,
“deemed”and
Treasury,     exportthe isCentral
                            definedIntelligence
                                      as a releaseAgency,
                                                     to a foreign
                                                                updatenational    of technology
                                                                          and expand     on a 1993   orinteragency
                                                                                                         software review
thatthe
of    is export
         subjectlicensing
                    to the Export      Administration
                               processes     for dual-useRegulations
                                                              and munitions  and,commodities.
                                                                                   therefore, is “deemed          to be
                                                                                                      After consideration
an the
of  export”     to theshome
         Chairman’              country
                          request,         of the foreign
                                     the Inspectors           national.
                                                        General    initiatedTheanprocesses
                                                                                    interagencyat the   laboratories
                                                                                                    review     to evaluate the
for reviewing
export    licensingassignments
                       process forofdual-use
                                        foreign nationals
                                                  commodities  generally    rely on the
                                                                    and munitions       to host  of the whether
                                                                                           determine       foreign current
national assignee
practices               to determine
             and procedures               whether there
                                  are consistent             are export concerns
                                                     with established                   associated
                                                                             national security     andwith     the policy
                                                                                                         foreign
assignment. InHowever,
objectives.                     we found
                    a joint letter            several hosts
                                     dated September        2, who
                                                                1998,were     not aware and
                                                                         the Chairman      of, or
                                                                                                thedid    not Minority
                                                                                                      Ranking
understand
Member       of the requirements
                     House Select for,       deemed on
                                        Committee      export
                                                           U.S.licenses
                                                                  Nationaland      severaland
                                                                               Security     hosts    who did not
                                                                                                Military/Commercial
appear to with
Concerns      appropriately
                     the People’exercise    their of
                                   s Republic      host  responsibilities.
                                                      China    requested theAlso,       there does
                                                                                  interagency          not of
                                                                                                  review      appear
                                                                                                                 the export
to be an organization
licensing                     within Energy that has management responsibility for the deemed
             process be expedited.
export license process.
The objectives of our inspection were to: (1) determine the adequacy of the Department of
We alsosreviewed
Energy’      (Energy’s)   theprocess
                              actionsfor taken   by Energy
                                            reviewing    exportin response     to recommendations
                                                                   license applications;      (2) address,   in our  1993
                                                                                                                 where
report on Energy’
applicable     to Energy,s export   licensing
                              questions    fromprocess     to determine
                                                  the Senate     Committee    theonadequacy    of the corrective
                                                                                      Governmental        Affairs; and actions.
Although
(3)  determinewe found      that Energy
                   the adequacy             has implemented
                                      of corrective               the corrective
                                                       actions that                    actions within
                                                                        were implemented                   its control
                                                                                                 in response       to the
regarding most recommendations,
recommendations           in our 1993 report   certain  recommendations
                                                  on this   subject.              may require additional review and
action by Energy, or interagency coordination.
RESULTS OF INSPECTION
Our report contains recommendations for actions to improve Energy’s export licensing review
processonand
Based         ourtoreview
                     strengthen    Energy’
                             of Energy’        s deemed
                                           s process    forexport    licensing
                                                             reviewing      exportprocess.
                                                                                     license Our     report also
                                                                                              applications       for contains
                                                                                                                      nuclear
recommendations
dual-use     and munitionsfor actions   to address
                                commodities,       weissues    that remain
                                                       determined               from
                                                                        that, for   theour
                                                                                        most1993
                                                                                               part,inspection
                                                                                                       the process  report.
appeared adequate. However, we identified issues that required corrective actions by Energy, as
MANAGEMENT
well  as issues that would REACTION
                                  best be addressed by other agencies or an interagency task force.

Management
For  example, concurred    with the
              a determination    wasfindings
                                      needed and   recommendations,
                                              by Energy    regarding the  indicating
                                                                             adequacythat  it would
                                                                                        of the        initiate
                                                                                                staffing  level
corrective
for        actions.
    the Nuclear      The Department
                 Transfer   and Supplierpromptly    established
                                          Policy (NTSP)           an Export
                                                            Division,   whichControl
                                                                                conducts Task Force,offormed
                                                                                           reviews      export
by the Under
license       Secretary,
        applications.      to Energy
                       Also,  review export
                                       neededcontrol   issues,
                                               to resolve   the including   the Department’
                                                                issue of access                s treatment of
                                                                                  by NTSP Division
deemed exports.
analysts to certainManagement’     s commentsrequired
                    intelligence information    are provided     in their
                                                          to support      entirety
                                                                       their       at license
                                                                              export   Appendix    C of our
                                                                                              activities.
report.
                                                                                   2

Issues that would best be addressed by other agencies or an interagency task force included,
among others, whether a process is needed for the escalation of munitions cases; the concern by
Commerce that several agencies, including Energy, did not always send the appropriate-level
representative to meetings of the Advisory Committee on Export Policy; and the inability of the
Commerce database to process image-type information, which prevents electronic transmittal of
certain documents that support Energy’s review of export license applications. This may
adversely impact the timeliness of Energy’s review process.

Also, we found that improvements are needed in the process for determining whether an
export license is required in conjunction with assignments of foreign nationals to Energy
laboratories. Specifically, guidance was not clear regarding when a “deemed” export
license would be required for an assignment involving a foreign national. The term
“deemed” export is defined as a release to a foreign national of technology or software
that is subject to the Export Administration Regulations and, therefore, is “deemed to be
an export” to the home country of the foreign national. The processes at the laboratories
for reviewing assignments of foreign nationals generally rely on the host of the foreign
national assignee to determine whether there are export concerns associated with the
assignment. However, we found several hosts who were not aware of, or did not
understand the requirements for, deemed export licenses and several hosts who did not
appear to appropriately exercise their host responsibilities. Also, there does not appear
to be an organization within Energy that has management responsibility for the deemed
export license process.

We also reviewed the actions taken by Energy in response to recommendations in our 1993
report on Energy’s export licensing process to determine the adequacy of the corrective actions.
Although we found that Energy has implemented the corrective actions within its control
regarding most recommendations, certain recommendations may require additional review and
action by Energy, or interagency coordination.

Our report contains recommendations for actions to improve Energy’s export licensing review
process and to strengthen Energy’s deemed export licensing process. Our report also contains
recommendations for actions to address issues that remain from our 1993 inspection report.

MANAGEMENT REACTION

Management concurred with the findings and recommendations, indicating that it would initiate
corrective actions. The Department promptly established an Export Control Task Force, formed
by the Under Secretary, to review export control issues, including the Department’s treatment of
deemed exports. Management’s comments are provided in their entirety at Appendix C of our
report.


cc: Deputy Secretary
    Under Secretary
THE DEPARTMENT OF ENERGY’S EXPORT LICENSING
PROCESS FOR DUAL-USE AND MUNITIONS COMMODITIES

                Overview
TABLE OF
CONTENTS        Introduction and Objective ……………………………………………          1

                Observations and Conclusions ………………………………………          2

                Background

                Legislative History ……………………………………………………… …           7

                Energy’s Export License Review Process ……………………… …    7

                Adequacy of Energy’s Export
                License Process …………………………………………………………               12

                Details of Findings and Recommendations ………………………    12

                Referral of Sample Export Cases …… ……………………………… 18

                Details of Findings and Recommendations ……………………… … 18

                Improvements Needed in “Deemed”
                Export License Process ………………………………………………            20

                Details of Findings and Recommendations ……………………… 20

                Additional Actions Needed on Prior
                Recommendations ………………………………………………………                29

                MANAGEMENT COMMENTS .………………………………………                 34

                INSPECTOR COMMENTS ……………………………………………                 35

                APPENDICES

                Appendix A: Scope and Methodology ……………………………        36

                Appendix B: Questions From the Senate
                Governmental Affairs Committee Chairman ……………………     38

                Appendix C: Management Comments on
                Export Licensing Draft Report ………………………………………        40
Overview
INTRODUCTION AND   Export of commodities, encouraged by both the private sector and the
OBJECTIVE          Federal Government, helps to improve our position in the global economy
                   and is in the national interest of the United States. However, exports of
                   commodities or technologies, without regard to whether they may
                   significantly contribute to the military potential of individual countries or
                   combination of countries or enhance the proliferation of weapons of mass
                   destruction, may adversely affect the national security of the United States.
                   The Federal Government, therefore, implements several laws, Executive
                   Orders, and regulations to control the export of certain commodities and
                   technologies. These commodities and technologies require a license for
                   export. Some of the controlled items are designated as “dual-use,” that is,
                   commodities and technologies that have both civilian and military
                   application. Some dual-use commodities are designated as “nuclear
                   dual-use” -- items controlled for nuclear nonproliferation purposes.
                   Another group of controlled commodities is designated as munitions, which
                   are goods and technologies that have solely military uses. The Department
                   of Energy (Energy) conducts reviews of export license applications for
                   nuclear dual-use items and certain munitions.

                   On August 26, 1998, the Chairman of the Senate Committee on
                   Governmental Affairs requested that the Inspectors General from the
                   Departments of Commerce, Defense, Energy, State, and Treasury, and the
                   Central Intelligence Agency (CIA), update and expand on a 1993
                   interagency review conducted by the Inspectors General of the Departments
                   of Commerce, Defense, Energy, and State of the export licensing processes
                   for dual-use and munitions commodities. The Chairman provided a list of
                   14 questions relating to export licensing that he requested be addressed
                   during the review. [See Appendix B.]

                   After consideration of the Chairman’s request, a determination was made
                   that an interagency review of the export licensing process would be
                   appropriate. Accordingly, the Inspectors General of Commerce, Defense,
                   Energy, State, Treasury and the CIA initiated an interagency review to
                   evaluate the export licensing process for dual-use commodities and
                   munitions to determine whether current practices and procedures are
                   consistent with established national security and foreign policy objectives.
                   In a joint letter dated September 2, 1998, the Chairman and the Ranking
                   Minority member of the House Select Committee on U.S. National Security
                   and Military/Commercial Concerns with the People’s Republic of China
                   requested the interagency review of the export licensing process be
                   expedited.




Page 1                               The Department of Energy’s Export Licensing
                                     Process for Dual-Use and Munitions Commodities
                           The purpose of our inspection was to review Energy’s export licensing
                           process for dual-use items and munitions subject to nuclear nonproliferation
                           controls. Our objectives were to: (1) determine the adequacy of Energy’s
                           process for reviewing export license applications referred to Energy for
                           review; (2) address, where applicable to Energy, questions from the Senate
                           Committee on Governmental Affairs; and (3) determine the adequacy of
                           corrective actions that were implemented in response to the
                           recommendations in our previous report on Energy’s export licensing
                           process, “Inspection of the Department’s Export Licensing Process for
                           Dual-use and Munitions Commodities,” DOE/IG-0331, dated August 10,
                           1993.

OBSERVATIONS AND
CONCLUSIONS

 Energy’s Export License   Based on our review of Energy’s process for reviewing nuclear dual-use
 Review Process            and munitions commodities, we determined that, for the most part, the
                           process appears to be adequate. However, we identified several problem
                           areas that require corrective action.

                           Our determination was based on our analysis of a random sample of 60
                           export license applications that were referred by the Department of
                           Commerce (Commerce) and processed by Energy during the period January
                           through June 1998 (hereafter, “60 referred cases”). Our determination was
                           also based on a review by an analyst in Energy’s Nuclear Transfer and
                           Supplier Policy (NTSP) Division, which is in the Office of Nonproliferation
                           and National Security, of an additional random sample of 60 cases provided
                           by Commerce that had not been referred to Energy during the same period.

                           We determined that all of the 60 referred cases were appropriately referred
                           by Commerce for Energy’s review. We also determined that only two of
                           the 60 referred cases, which were subject to the 30-day Executive Order
                           requirement to review and recommend approval or denial to Commerce,
                           were not processed by Energy within the required timeframe. In addition,
                           we determined that, of the 60 cases that had not been referred to Energy
                           because of Energy’s delegation of authority to Commerce to review certain
                           export cases, one of the cases should have been referred for Energy’s
                           review because of the nuclear end-user. As part of its implementation of
                           the Government Performance and Results Act of 1993 (Results Act),
                           Energy must, among other things, establish program goals and measure
                           performance against those goals. The timeliness of Energy’s processing of




Page 2                                       The Department of Energy’s Export Licensing
                                             Process for Dual-Use and Munitions Commodities
         export license applications is a performance-based measure that can be used
         to evaluate Energy’s performance under the Results Act.

         Our review of the completeness, accuracy, consistency, and security of the
         Energy database that supports Energy’s export license review process was
         limited to an analysis of the 60 referred cases. We did not review the cases
         to determine the appropriateness of Energy’s recommendations for the 60
         referred cases. Based on our analysis, we did not identify problems with the
         Energy database. For example, we believe that the Energy database
         contains the required records concerning the factual and analytical bases for
         Energy’s advice, recommendations and decisions on the 60 referred cases.
         We also determined that Energy has established detailed procedures to limit
         access to the Energy database and to protect the information contained in
         the database. Additionally, we determined that the Energy database retains
         considerable information on each export case and, therefore, provides a
         reliable audit trail regarding Energy’s processing of the case. The minor
         discrepancies we found between information in the Energy and Commerce
         databases were caused by Energy not receiving all the comments of
         Commerce Licensing Officers on specific cases for input to the “DOC
         Comments” field. We concluded that, to ensure consistency of the
         information in the Energy and Commerce databases, the “DOC Comments”
         field in PINS should capture all of Commerce’s comments.

         We interviewed NTSP Division analysts to determine the adequacy of their
         training, their view of the adequacy of the interagency “escalation” process
         for appealing disputed recommendations, and whether they felt improperly
         pressured by their supervisors regarding their recommendations on license
         applications. Based on our interviews, we determined that, although a
         formal training program for NTSP Division analysts has not been
         established, the existence of an on-the-job training program, supported by
         detailed reference material, provides an adequate level of training. Also, we
         were told by the NTSP Division Director that she believes the escalation
         process works. Finally, we found no evidence that NTSP Division analysts
         are being pressured improperly by their superiors to issue or change specific
         recommendations on license applications.

         Our review also disclosed several issues that would best be addressed by
         other agencies or an interagency task force. For example, we determined
         that there is no process for interagency meetings on munitions cases or for
         escalation of disagreements over munitions cases. We concluded that the
         issue of whether a process is needed regarding the escalation of munitions
         cases should be addressed.

         Also, Commerce identified a concern regarding the level of agency


Page 3                      The Department of Energy’s Export Licensing
                            Process for Dual-Use and Munitions Commodities
                        representation at meetings of the Advisory Committee on Export Policy
                        (ACEP). Commerce was concerned that several agencies, including
                        Energy, did not always send an Assistant Secretary-level representative to
                        the meetings. Although the language in the relevant Executive Order
                        regarding the level of representation at meetings could be clearer, we do not
                        believe the Executive Order limits participation at the meetings to only
                        Assistant Secretary-level officials. Therefore, we believe that the agencies
                        involved should jointly determine the appropriate level of representation at
                        ACEP meetings.

                        In addition, we found that the Commerce database was unable to process
                        image-type information, which prevents electronic transmittal of large
                        diagrams and other oversized documents that support export license
                        applications. This requires Energy to either request from Commerce the
                        required documents or to contact the applicant directly. We concluded that
                        the current process used by Commerce to provide supporting documents to
                        Energy may adversely impact the timeliness of Energy’s review process and
                        should be improved.

                        During our review of Energy’s export license review process, a
                        Commerce official expressed concern about the apparent lack of
Deemed Export License   export license applications submitted to Commerce by Energy for
Process                 foreign visitors. According to the Export Administration
                        Regulations (EAR), any release to a foreign national of technology
                        or software that is subject to the EAR is “deemed to be an export”
                        to the home country of the foreign national.1 We found that
                        improvements are needed in the process for determining whether an
                        export license is required in conjunction with assignments of foreign
                        nationals to Energy laboratories.

                        The focus of our review of the “deemed” export license process was
                        to determine whether the hosts of the foreign assignees should have
                        acquired deemed export licenses. We did not consider whether the
                        foreign nationals should have been at the Energy laboratories. We
                        limited our review to assignments (i.e., visits for more than 30
                        calendar days) of certain foreign visitors to four Energy

                        laboratories. As a part of this review, we looked at a small sample



                        1
                          For purposes of this review, we did not address the issue of whether U.S.
                        scientists traveling abroad might require an export license under certain
                        circumstances.


Page 4                                     The Department of Energy’s Export Licensing
                                           Process for Dual-Use and Munitions Commodities
         of projects at the Energy laboratories in which foreign assignees had
         participated to determine whether there were any export concerns.

         During our visits to Energy laboratories, we were advised that each
         of the laboratories was taking initiatives regarding visits or
         assignments of foreign nationals. We had concerns, however, with
         several aspects of the deemed export license process. For example,
         we found that guidance was not clear regarding when a deemed
         export license would be required for an assignment involving a
         foreign national. We also found that additional guidance from
         Commerce may be required for an assignment involving a foreign
         national.

         In addition, we found that the processes at the laboratories for reviewing
         assignments of foreign nationals generally rely on the host of the foreign
         national assignee to determine whether there are export concerns associated
         with the assignment. We believe that the reliance on the host to determine
         whether an export license is required for a foreign national assignment is
         problematic because we found several hosts who were not aware of, or did
         not understand, the requirements for deemed export licenses and several
         hosts who did not appear to appropriately exercise their host
         responsibilities.

         As a result of our review, we are concerned that there does not appear to be
         an organization that has management responsibility for the deemed export
         license process within Energy.

         We reviewed a small, judgmental sample of the documentation processed
         for proposed assignments to the laboratories of foreign nationals from
         certain countries. We found that, under the process existing at the time of
         our review, there were several cases in which export license applications
         were not submitted by hosts for certain foreign national assignments.
         However, an export license may have been required because of the
         information being accessed, the individual’s citizenship, or the individual’s
         employer.

         Because we cannot determine the extent of the daily activities in which the
         foreign nationals have been involved, or the specific information and
         technologies to which they might have had access, we cannot definitively
         state that Energy should have obtained deemed export licenses for any of
         these foreign assignees. Additionally, we do not have any evidence that

         any technology or information has been inappropriately exported, without


Page 5                      The Department of Energy’s Export Licensing
                            Process for Dual-Use and Munitions Commodities
                   an export license, to any country.

                   Based on the above, however, we concluded that there are sufficient
                   indicators of possible problems with Energy’s deemed export licensing
                   process to warrant a review by Energy officials.

                   By memorandum dated March 16, 1999, the Inspector General advised the
                   Under Secretary, who was the Acting Deputy Secretary, of our concerns
                   regarding deemed exports. Based on direction from the Under Secretary,
                   Energy officials requested a meeting on this subject, which was convened
                   on April 2, 1999. The Energy officials indicated that actions would be
                   initiated to address the concerns that we had identified.

Energy’s Actions   We reviewed the actions taken by Energy in response to recommendations
on Prior           in our 1993 report on Energy’s export licensing process to determine the
Recommendations    adequacy of the corrective actions. Energy officials had previously reported
                   that corrective actions had been completed. Although we found that
                   Energy has implemented the corrective actions within its control regarding
                   most recommendations, certain recommendations may require additional
                   review and action by Energy, or interagency coordination.

                   The following matters may best be addressed by an interagency task force.
                   For example, we found that information available to Commerce regarding
                   whether a commodity was purchased and/or shipped is not currently
                   available to Energy. Also, we determined that the Department of State
                   (State) does not notify Energy of the final disposition of munitions cases.
                   Finally, we learned that Commerce was developing the Automated Export
                   System (AES), which was intended to show the final disposition of
                   exported commodities that were licensed by Commerce. We concluded
                   that, to assist them in their review of export license applications, Energy
                   officials should seek access to this information.




Page 6                                The Department of Energy’s Export Licensing
                                      Process for Dual-Use and Munitions Commodities
BACKGROUND
                       The principal authority governing the export control of nuclear dual-use
 Legislative History   commodities derives from the Export Administration Act of 1979, as
                       amended (50 U.S.C. 2401 et seq.) (EAA) and the Nuclear Non-
                       Proliferation Act of 1978, as amended (22 U.S.C. 3201 et seq.). The EAA
                       expired in 1994 and has not been reauthorized. However, pursuant to the
                       International Emergency Economic Powers Act (50 U.S.C. 1701 et seq.),
                       the President has continued and amended the provisions of the EAA
                       through a number of Executive Orders (E.O.s). Most recently, on
                       August 13, 1998, the President issued a notice “Continuation of
                       Emergency Regarding Export Control Regulations” continuing E.O. 12924,
                       dated June 30, 1994. (63 Fed. Reg. 44,119 (1998))

                       Commerce uses the Export Administration Regulations (15 C.F.R. Part 730
                       et seq.) to implement policies regarding the export of nuclear dual-use
                       commodities. Items designated for nuclear nonproliferation controls
                       constitute the Nuclear Referral List, a subset of the Commerce Control List.
                       Although E.O. 12981, Administration of Export Controls, dated December
                       6, 1995, provides authority to Energy and several other Departments to
                       review any export license applications submitted to Commerce, Energy
                       generally reviews only those export license applications received by
                       Commerce dealing with the export of certain nuclear-related dual-use
                       commodities.

                       Section 38 of the Arms Export Control Act (22 U.S.C. 2778) authorizes the
                       President to control the export and import of defense articles (munitions)
                       and defense services. Commodities designated for such controls constitute
                       the U.S. Munitions List. State administers export controls on all munitions
                       pursuant to the International Traffic in Arms Regulations (22 C.F.R. Part
                       120 et seq.) and consults with Energy on export license applications for
                       certain munitions commodities.

                       Energy's export licensing review activities for nuclear dual-use and
                       munitions commodities are based on the provisions of the laws, Executive
Energy’s Export        Orders, and regulations discussed above, which Energy has not
License Review         supplemented with internal orders. The NTSP Division, within Energy’s
Process                Office of Nonproliferation and National Security, plays a major role in the
                       formulation of U.S. nuclear nonproliferation and export control policies and
                       makes unique contributions to the implementation of these policies,
                       nationally and internationally.


                       Energy’s process for reviewing export license applications received from




Page 7                                   The Department of Energy’s Export Licensing
                                         Process for Dual-Use and Munitions Commodities
         Commerce regarding dual-use commodities, which represent the majority
         of export license applications reviewed by Energy, is shown at Figure 1.
         Energy also processes export license applications for munitions
         commodities. These are provided by State in a manner similar to
         applications received from Commerce, except that they are not transmitted
         electronically.




                   Energy Export License Review Process

               License Application
                 (LA) submitted




                Department of
                Commerce's                 PROLIFERATION INFORMATION NETWORK SYSTEM (PINS)
                  (DOC's)                                   Classified Network
               Bureau of Export
             Administration (BXA)
                                                                                     Lab(s)*
                                                                                     provide
              BXA database updated                                      ANL       technical and     ORNL
               with LA information                                      LANL      End-Use/User     PNNL
                                                                         LLNL        analysis     SNL
                                                                                                  SR



                                                                                                                    NTSP
                    BXA
                   Database
                                            LA information                                                         Lab(s) analysis reviewed,
                                        reviewed, assigned to                                                       recommendation made to
                                         appropriate lab(s) for                   PINS Database                   approve or deny application,
                                              analysis.                               LANL                                with/without
                                                                                                                          conditions
                                                        NTSP

                      DOC

                                                                                        LANL
                     Energy

                                                                                              Unclassified
                      LANL                                                                 recommendations
                                                                         PINS updated
                                                                                             downloaded to
                                                                                            magnetic media
                          LA data
                       downloaded to
                         magnetic
                           media




                                LANL

             Recommendations
              uploaded to BXA
                  database
                                                           *   Department of Energy Organizations

                                                                   ANL = Argonne National Laboratory
                                                                  LANL = Los Alamos National Laboratory
                                                                  LLNL = Lawrence Livermore National Laboratory
                                                                  ORNL = Oak Ridge National Laboratory
                                                                  PNNL = Pacific Northwest National Laboratory
                                                                   SNL = Sandia National Laboratory
                                                                    SR = Savannah River




            Figure 1 – Energy’s Export License Application Review Process

Page 8                                 The Department of Energy’s Export Licensing
                                       Process for Dual-Use and Munitions Commodities
Interface with Commerce   Commerce currently refers nuclear dual-use export license applications
                          (cases) to Energy for review. These cases involve commodities on the
                          Nuclear Referral List (NRL) or commodities that are intended for a nuclear
                          end-use or a nuclear end-user. Commerce, however, does not refer all NRL
                          cases to Energy. For some commodities on the NRL that are not intended
                          for nuclear end-use or nuclear end-users, Energy has delegated to
                          Commerce, through "Delegations of Authority” (DOAs), the authority to
                          process these commodities without referring the cases to Energy. Energy
                          has also given Commerce a DOA for commodities to Nuclear Suppliers
                          Group members, because no license is required for items on the NRL to
                          these countries.

                          Data concerning export license cases is contained in Commerce’s Export
                          Control Automated Support System (ECASS), which is an unclassified
                          system. For cases referred to Energy, the data is electronically sent to
                          Energy’s Los Alamos National Laboratory (LANL), where it is downloaded
                          and entered into Energy’s Proliferation Information Network System
                          (PINS), which is a classified system. Energy has 30 days from receipt of a
                          referral and all required information to provide Commerce a
                          recommendation regarding the license application.

                          Energy’s NTSP Division is organized into regional and functional analysts
                          who evaluate dual-use licenses with the knowledge and understanding of a
                          particular country’s potential nuclear weapons program, civilian nuclear
                          programs, compliance with international nonproliferation or arms control
                          treaties, as well as a familiarity with nuclear-related technologies. The
                          Energy NTSP Division analyst assigned responsibility for the case will
                          usually designate one of seven Energy laboratories and activities with access
                          to PINS to conduct the primary analysis of the case. However, if they have
                          an interest, any of the activities may provide input on the case to the NTSP
                          Division analyst. The majority of cases are also referred to Energy’s
                          Lawrence Livermore National Laboratory (LLNL) for end-user analysis.

                          Energy’s NTSP Division analysts factor many criteria into their review of
                          dual-use license applications, including those embodied in EAR, 15 C.F.R.
                          Part 744; namely, end-user of the commodity, technical significance of the
                          commodity and stated end-use, potential risk of diversion, and
                          nonproliferation credentials of the importing country. They also rely on
                          intelligence information from Energy’s Office of Intelligence and other
                          segments of the U.S. Intelligence Community in their technical evaluation of
                          nuclear dual-use and munitions license applications. After reviewing the
                          laboratories’analyses, the NTSP Division analyst will make a



Page 9                                       The Department of Energy’s Export Licensing
                                             Process for Dual-Use and Munitions Commodities
                       recommendation to his or her supervisor to deny, approve, or approve with
                       conditions. When the supervisor approves the recommendation, Energy’s
                       unclassified recommendation and the conditions, if any, are downloaded
                       from PINS and uploaded to ECASS. Comments from the Energy activities
                       and NTSP Division analysts are not provided to Commerce.

                       Munitions commodities under the jurisdiction of State include items
Interface with State   that could be used in the design, development, or fabrication of
                       nuclear weapons or explosive devices. Historically, State has
                       received few requests for the export of these types of commodities.
                       However, when received, State usually refers munitions export cases
                       involving commodities in Category V (Explosives, Propellants,
                       Incendiary Agents), Category VI (Vessels of War Special Naval
                       Equipment), and Category XVI (Nuclear Weapons Design and Test
                       Equipment) of the U.S. Munitions List to Energy for review. State
                       also refers export applications to Energy when a munitions
                       commodity is to be used directly or indirectly in “nuclear explosive
                       activities,” or “unsafeguarded nuclear activities,” and “safeguarded
                       and unsafeguarded nuclear activities.” Although State only referred
                       a total of 10 cases to Energy for review during calendar years 1997
                       and 1998, State and Energy consult several times a month on cases
                       other than those in Categories V, VI and XVI of the U.S. Munitions
                       list. Export cases are transmitted between State and Energy via mail
                       or fax because the agencies lack an electronic interface. However,
                       the State munitions cases are entered into PINS and processed in the
                       same manner as dual-use cases referred from Commerce.

Interagency Dispute    E.O. 12981 provides general guidance for resolving interagency concerns
Resolution Process     and differences over export license applications. E.O. 12981 further
                       provides a mechanism to escalate cases to a higher level of authority when
                       the reviewing departments or agencies are not in agreement. The escalation
                       process includes, in ascending order, the Operating Committee (OC) of the
                       Advisory Committee on Export Policy (ACEP), the ACEP, the Export
                       Administration Review Board, and the President.

                       The OC, which has as its members representatives from Commerce, State,
                       the Department of Defense (Defense), Energy, and the Arms Control and
                       Disarmament Agency (ACDA), reviews all license applications on which the
                       reviewing departments and agencies disagree. Representatives of the Joint
                       Chiefs of Staff (JCS) and the Nonproliferation Center (NPC) of the Central
                       Intelligence Agency (CIA) are nonvoting members. The Executive Order
                       does not stipulate the level of representation for the OC. The Chair


                       of the OC, who is appointed by the Commerce Secretary, will consider the

Page 10                                  The Department of Energy’s Export Licensing
                                         Process for Dual-Use and Munitions Commodities
                        recommendations of the reviewing departments and agencies and issue a
                        decision regarding the license application. If a department or agency
                        disagrees with the decision of the OC Chair, it has five days to appeal the
                        decision to the ACEP.

                        The ACEP is chaired by the Assistant Secretary of Commerce for Export
                        Administration and has as its members Assistant Secretary-level
                        representatives of State, Defense, Energy and ACDA. Representatives of
                        the JCS and NPC are nonvoting members. However, the Executive Order
                        also provides for an agency representative, regardless of rank, to speak and
                        vote at the ACEP on behalf of the appropriate Assistant Secretary or
                        equivalent. When a license application is appealed to the ACEP, the ACEP
                        reviews all departments’and agencies’information and recommendations,
                        and, by majority vote of the members, decides the appeal. Any dissenting
                        department or agency has five days to appeal the decision to the Commerce
                        Secretary in his or her role as the Chair of the Export Administration
                        Review Board, which has as its members the Secretaries of Defense,
                        Energy, and State, and the Director, ACDA. The JCS Chairman and the
                        Director of Central Intelligence are nonvoting members. A decision by the
                        Export Administration Review Board, which is based on a majority vote of
                        the members, may be appealed within five days to the President.
Energy Export License   The Proliferation Information Network System (PINS) is a management
Database                information system that supports Energy’s export license review activities
                        for nuclear dual-use and munitions commodities and certain nonproliferation
                        activities. The system, which contains data classified up to the SECRET/
                        RESTRICTED DATA level, can be accessed by NTSP Division analysts, as
                        well as analysts at the Energy activities involved in the export license review
                        process. PINS provides analysts with a multitude of reference material to
                        assist in the review of export license applications, including technical
                        information in the Nuclear Technology Reference Book and Military Critical
                        Technology List; policy guidance, such as National Security Directives and
                        Executive Orders; laws, treaties, and regulations; and classified intelligence
                        information on end-users and suppliers. PINS also contains information on
                        export cases currently under review by Energy, as well as export cases that
                        Energy reviewed since 1978.


                        We obtained information regarding the Energy export license application




Page 11                                    The Department of Energy’s Export Licensing
                                           Process for Dual-Use and Munitions Commodities
Adequacy of Energy’s Export License Process
                          review process, as well as information responsive to certain questions from
                          the Senate Governmental Affairs Committee.

                          To assist the interagency review of the process for referring export cases
                          between agencies, the Commerce Office of Inspector General (OIG)
                          provided a random sample of 60 export license applications referred by
                          Commerce and processed by Energy during the period January through June
                          1998 (hereafter, “60 referred cases”). Our analysis of these sample cases
                          included a comparison of case information in the automated data bases
                          maintained by Commerce (ECASS) and Energy (PINS). We also examined
                          the timeliness and appropriateness of the referral to Energy of these 60
                          cases.

                          At our request, the Commerce OIG also provided an additional random
                          sample of 60 cases that were not referred by Commerce to Energy during
                          the period January through June 1998. We provided these additional 60
                          cases to an NTSP Division analyst and requested a determination whether,
                          in his view, any of the cases should have been referred to Energy.

                          Based upon these reviews, we identified several issues concerning Energy’s
                          export license review process.

                          We reviewed whether current statutory and regulatory authorities contain
                          inconsistencies or ambiguities regarding the licensing of dual-use and
Inconsistency In          munitions commodities. NTSP Division officials identified what they
Statutory and             believe is an inconsistency in current statutory and regulatory authorities.
Regulatory Authorities    While procedures for processing dual-use license applications are clearly
                          articulated in relevant regulations, there is no equivalent process for
                          reviewing munitions cases. As a result, Energy’s role in reviewing
                          munitions cases is not clear. In addition, there is no process for inter-
                          agency meetings on munitions cases or for escalation of disagreements over
                          munitions cases. We concluded that the issue of whether a process is
                          needed regarding the escalation of munitions cases is an interagency matter
                          that should be addressed.

                          We reviewed whether E.O. 12981, as implemented, is consistent with the
                          objectives of the Export Administration Act and other relevant statutory and
Executive Order Is        regulatory authorities. NTSP Division officials believe that the Executive
Consistent With the EAA   Order is consistent with the objectives of the Export Administration Act and
                          other relevant statutory and regulatory authorities.


                          We reviewed whether there is a continued lack of interagency accord, as



Page 12                                                                            Details of
                       stated in the 1993 interagency report, concerning whether Commerce is
Majority of Cases      properly referring export license applications (including supporting
Properly Referred by   documentation) for review by other agencies. NTSP Division officials
Commerce               identified a small number of cases that should have been referred to Energy.
                       Energy has identified certain commodities that it does not need to review
                       and has delegated authority to Commerce for those cases under the DOAs.
                       Approximately 1,000-1,500 cases per year are covered by the DOAs.
                       Based on their review of these cases, NTSP Division officials found
                       approximately one percent of the cases had been erroneously processed.
                       The NTSP Division Director advised us that she plans to rescind the DOAs
                       to Commerce for a period of time to determine whether they should be
                       continued.

                       We asked NTSP Division officials to review the 60 randomly-selected
                       export cases that had not been referred by Commerce to Energy to
                       determine whether any of these cases should have been referred to Energy.
                       According to an NTSP Division official, one of the 60 cases should have
                       been referred to Energy because of the nuclear end-user. We learned that
                       Commerce ultimately returned the application to the applicant without
                       action.

                       Although Commerce and Energy share export license information via
                       electronic transfers, not all export licensing information can be electronically
                       transmitted between the agencies. For example, the inability of ECASS to
                       process image-type information prevents transmittal of large diagrams and
                       other oversized documents, such as technical specifications. When NTSP
                       Division analysts require information in the supporting documents, the
                       analysts either contact the applicant directly or request Commerce to
                       provide the documents, usually by mail. We concluded that the current
                       process used by Commerce to provide supporting documents to Energy
                       may adversely impact the timeliness of Energy's review, and should be
                       improved.

                       We recommend that the Assistant Secretary for Nonproliferation and
                       National Security:

                       1. Coordinate with Commerce to establish a more effective process to
                          provide supporting documents or information to Energy.


                       We reviewed whether the interagency “escalation” process for appealing




Page 13                                                   Details of Finding/Recommendation
                          disputed recommendations relating to license applications allows officials
“Escalation” Process Is   from dissenting agencies a meaningful opportunity to seek review of such
Adequate                  applications. The NTSP Division Director said that Energy objects to very
                          few cases and she believes the escalation process works. For example,
                          when Energy recommends denial of an application and another reviewing
                          agency has recommended approval, the case is escalated. When Energy
                          recommends denial, Energy’s recommendation is almost always accepted.
                          She said that almost all disputed cases are resolved at the ACEP.

                          We became aware of a potential issue identified by Commerce concerning
                          the level of agency representation at the ACEP. The concern was that
                          several agencies, including Energy, did not always send an Assistant
                          Secretary-level representative to the meetings. Our review of E.O. 12981
                          determined that although the Executive Order states that the ACEP shall
                          have as its members Assistant Secretary-level representatives from Defense,
                          Energy, State, and the Arms Control and Disarmament Agency, the
                          Executive Order also provides for representatives to be of a lesser rank,
                          such as a Deputy Assistant Secretary or equivalent. The Executive Order
                          further states that “regardless of the department or agency representative’s
                          rank, such representative shall speak and vote at the ACEP on behalf of the
                          appropriate Assistant Secretary or equivalent . . . .” Although the language
                          in the Executive Order could be clearer regarding ACEP membership, we
                          believe that the Executive Order does not require that participation at ACEP
                          meetings be limited only to Assistant Secretary-level officials. We believe
                          that the agencies involved should jointly determine the level of
                          representation at ACEP meetings.

                          We reviewed whether the current dual-use licensing process adequately
                          takes account of the cumulative affect of technology transfers resulting from
Energy Reviews For        the export of munitions and dual-use items. We determined that Energy’s
Proliferation Concerns    process includes a review for proliferation concerns. As discussed
                          previously, PINS provides Energy analysts classified intelligence
                          information on end-users and suppliers. Energy analysts can use data stored
                          in PINS to provide a summary of license applications sorted by destination
                          countries; by exporter; by equipment and commodities, by type or
                          description; and by export commodity classification numbers. PINS also
                          contains export case information on cases that were reviewed by Energy as
                          far back as 1978. However, Energy does not have the information available
                          to Commerce as to whether a specific commodity was shipped, and does
                          not have information available to State on the final disposition of munitions
                          cases. We believe that if Energy analysts had access to this information,
                          their analyses would be more complete.

                          We reviewed whether license review officials at Energy are provided


Page 14                                                                            Details of
                         sufficient training and guidance relevant for reviewing license applications.
Training for NTSP        We determined that, although a formal training program has not been
Division Analysts Is     established, the existence of an on-the-job training program, supported by
Adequate                 detailed reference material, provides an adequate level of training.
                         According to NTSP Division officials, Energy seldom hires new NTSP
                         Division analysts, therefore there is no formal training program. When a
                         new analyst is hired, however, the individual is assigned to work with a
                         more experienced licensing officer. The new analyst, who would be given
                         increasing responsibilities, would initially be tasked to review countries or
                         technologies for which there are no significant proliferation concerns and
                         would attend interagency meetings as an observer to learn about other
                         agencies, national policies, and the nonproliferation environment.
                         Continuing training is in the form of participation at Energy-sponsored
                         nonproliferation workshops, attendance at trade shows, and attendance at
                         seminars with Commerce, exporters or international delegations. NTSP
                         Division officials said that new procedural manuals have been written that
                         analysts can use for reference, including “A Guide to Nuclear Export
                         Controls” and the “Inspection Guidebook for the Nuclear Suppliers Group
                         Dual-Use Annex.” We concluded that the training currently being provided
                         to NTSP Division analysts appears to be adequate.

                         We reviewed the adequacy of databases used in the export licensing
                         process, and the completeness, accuracy, consistency and security of the
No Problems Identified   databases. Our review of the Energy database, PINS, which was based on
With Energy’s Database   the 60 referred cases, did not identify any significant issues.

                                              Minor data discrepancies identified

                         Our review of the data contained in PINS and the Commerce database
                         (ECASS) for the 60 referred cases disclosed only minor discrepancies,
                         which were related to the data field in PINS for “DOC Comments.” This
                         data field is used to record the Commerce Licensing Officer’s comments to
                         Energy. We learned that, for some cases, Energy did not receive the entire
                         comments from Commerce for this data field because the comments were
                         “truncated” when received by Energy. We concluded that, to ensure
                         consistency of the information in PINS and ECASS, the “DOC Comments”
                         field in PINS should capture all of the Commerce comments.


                         We recommend that the Assistant Secretary for Nonproliferation and




Page 15                                                                             Details of
          National Security:

          2. Coordinate with Commerce to ensure that Energy receives all
             Commerce comments concerning an export license application.

                                  PINS contains required records

          Based on our review of records maintained in PINS for the 60 referred
          cases, we believe that PINS contains the required records. Export control
          requirements provide for departments or agencies consulted in connection
          with a license application to keep records of their advice, recommendations
          or decisions, including the factual and analytical bases of the advice,
          recommendations or decisions. In our view, PINS contained the required
          records concerning the factual and analytical bases for Energy’s advice,
          recommendations, and decisions for the 60 referred cases.

                               PINS access limited and data protected

          We determined that Energy has established detailed procedures to limit
          access to the PINS classified databases and to protect the information
          contained in the databases. All communication lines between servers are
          protected with National Security Agency-approved Type I encryption units
          (STU-III and NES encryption units). Terminals are located in secure areas
          at Energy Headquarters and at the sites that participate in the review of
          export cases. Access to PINS requires presentation of a password and user
          identification. Audit trails are maintained of certain events, such as attempts
          to use an incorrect password more than five consecutive times, the receipt
          of a message from an unknown NES unit, or the inability to decrypt a
          message. These audit trails are restricted from access by any PINS user
          except the LANL System Manager. The NES audit logs from all
          laboratories accessing PINS are reviewed biweekly by LANL. Also, the
          server security log is monitored daily at LANL.

          We reviewed data security, and whether comments or recommendations can
          be changed once entered into PINS. We determined that although PINS
          users are permitted to view, extract, and print information from the PINS
          server, users do not have the ability to change or delete data or
          recommendations. For example, NTSP Division analysts and Energy
          activity analysts enter their comments into PINS on each application
          they review. NTSP Division analysts said that, although they may disagree
          with an activity analyst’s comments, they do not have the ability to
          overwrite the comments. They said they will, however, document in the


          “Comment Section” of the particular case, their reasons for disagreement

Page 16                                        Details of Finding/Recommendation
                         with the activity analyst. According to the NTSP Division analysts, there
                         were two types of comments entered into PINS for each case; an “Active
                         Comments” field, which can be accessed by the author and allows the
                         author to edit his or her comments, and a “Frozen Comments” field, which
                         can be reviewed by all PINS users, including the author, but which cannot
                         be edited or changed. As of December 1998, PINS was determined to be
                         “Y2K” compliant.

                         We found no evidence that NTSP Division analysts are being pressured
                         improperly by their superiors to issue or change specific recommendations
Analysts Not Pressured   on license applications. All NTSP Division analysts that we interviewed
to Change                stated that they had never been pressured to change their recommendations
Recommendations          regarding license applications.

                         We reviewed whether Energy’s licensing process leaves a reliable audit trail
                         for addressing licensing performance. We determined that considerable
PINS Provides            information regarding each export case is retained in PINS. According to
Adequate Audit Trail     an NTSP Division analyst, PINS tracks virtually everything that is done to a
                         license application, and therefore, the case history in PINS for each export
                         case will show everything that has been done for a particular application.
                         Our review of case histories in PINS for the 60 referred cases showed that
                         the case histories contained the information regarding Energy’s processing
                         of the case. For example, among other things, each case history contained
                         the dates that Energy received the case for review and subsequently
                         provided its recommendation to Commerce; comments by Energy activity
                         analysts who reviewed the case; comments by the NTSP Division analyst;
                         and Energy’s recommendation, including a description of any conditions on
                         the license.

                         As discussed previously, we reviewed two sets of sample export license




Page 17                                                                          Details of
Referral of Sample Export Cases
                       application cases provided to us by the Commerce OIG. The results of our
                       analyses follow.

                       E.O. 12981 requires that, within 30 days of receipt of a referral, a
                       department or agency provide Commerce with a recommendation either to
Energy Review Timely   approve or deny the license application. The results of our analysis of the
                       timeliness of Energy’s review of 51 of the 60 referred cases is shown in
                       Figure 2 (see note). Energy provided comments to Commerce for 49 of the
                       51 cases within the 30-day requirement specified by E.O. 12981 and, on
                       average, cases processed by Energy were completed well within the time
                       requirements.




                                                                         Analysis of DOE Review Tim e
                                                 80%


                                                 70%
                        Percentage of Caseload




                                                 60%
                                                                                                                                      Average
                                                 50%                                                                                  Number of
                                                                                                                                      Days for
                                                 40%                                                                                  Review: 23

                                                 30%


                                                 20%


                                                 10%


                                                  0%
                                                       1-5        6-10      11-15          16-20          21-30         31>
                       (No. of Cases)                   (0)       (4)        (4)           (4)           (37)     (2)    (Total 51)
                                                                         Number of Days for DOE Review




                                                              Figure 2 – Analysis of DOE Review Time2



                       Data generated from PINS showed that the average number of days for
                       Energy to process the cases received from Commerce in calendar year 1998
                       was nine days. This excludes cases referred to Energy for review prior to
                       OC meetings.




                       2
                          Of the 60 referred cases, we only included 51 in our timeliness analysis.
                       In one case, Energy was the applicant so Energy did not provide a
                       response; four cases were cases sent to Energy for review for OC
                       meetings; and four cases were National Defense Authorization Act cases,
                       which have a ten-day response time and are not subject to the 30-day
                       review requirement.


Page 18                                                                                                                   Details of
Majority of Cases        An analysis of the 60 referred cases indicated that all the cases were
Appropriately Referred   appropriately referred by Commerce.

                         Also, the analysis by an NTSP Division analyst of the 60 sample cases that
                         had not been referred to Energy by Commerce showed that one of the 60
                         cases should have been referred to Energy for review because of the nuclear
                         end-user. We learned that Commerce ultimately returned this case to the
                         applicant without action.

PINS Contains Required   As discussed previously, based on our review of records maintained in PINS
Records                  for the 60 referred cases, we believe that PINS contains the required
                         records. We could not, however, make a determination regarding the
                         appropriateness of Energy’s recommendations on the 60 referred cases.

Adequacy of Database     Also, as discussed previously, our review of the data contained in ECASS
Information              and PINS for the 60 referred cases disclosed only minor discrepancies,
                         which concerned the comments in the “DOC Comments” data field for some
                         cases.




Page 19                                                                            Details of
Improvements Needed In “Deemed” Export License Process

                  We found that Energy needs to clarify its policies with regard to deemed
                  export licenses. When the policies are clarified, improvements should be
                  made to the process for determining whether an export license is needed in
                  conjunction with assignments of foreign nationals to Energy laboratories.

                  During our review of Energy’s export license review process, a Commerce
                  official expressed concern that Energy entities were not applying for export
                  licenses for foreign nationals who might have access to export-controlled
                  technology and/or software while visiting Energy laboratories. He based his
                  concern on the large number of foreign visitors to Energy laboratories and
                  the apparent lack of export license applications submitted to Commerce by
                  Energy entities for foreign visitors. According to the EAR, any release to a
                  foreign national of technology or software that is subject to the EAR is
                  “deemed to be an export” to the home country of the foreign national. 3
                  These exports are commonly referred to as “deemed exports.” In such
                  instances, the U.S. host(s) would generally be required to obtain an export
                  license before providing the foreign national access to technology or
                  software that may be subject to export controls. According to a Commerce
                  official, a deemed export license might also be required for a foreign visitor
                  who is affiliated with an entity involved in proliferation activities, regardless
                  of the technology or software that this visitor might access.

                  We reviewed the requirements for deemed exports contained in the EAR, as
                  well as relevant Energy guidance. We limited our review to four Energy
                  laboratories: LANL, LLNL, Oak Ridge National Laboratory (ORNL) and
                  Sandia National Laboratory (SNL)-Albuquerque. For each laboratory, we
                  reviewed the process used for determining whether there are export issues
                  related to assignments of foreign nationals to unclassified activities in the
                  laboratory. Energy has defined “assignments” as visits by foreign nationals
                  for more than 30 calendar days. Our review did not include visits by foreign
                  nationals to the laboratories, which are 30 calendar days or less. We also
                  reviewed a small sample of projects at each of the four Energy laboratories
                  in which foreign assignees had participated. The review of these projects
                  was to determine whether there were any export concerns. The focus of
                  our review of “deemed” exports was to determine whether the




                   3
                     Release includes, among other things, visual inspection by foreign
                   nationals of U.S.-origin equipment and facilities, and oral exchanges of
                   information.


Page 20                                                                       Details of
          hosts of the foreign assignees should have acquired deemed export licenses.
          4
            We did not consider whether the foreign nationals should have been at the
          Energy laboratories.

          During our visits to the Energy laboratories, we were advised that each of
          the laboratories was taking initiatives regarding export controls for visits or
          assignments of foreign nationals. For example, SNL-Albuquerque, LANL
          and ORNL are making guidance available to employees via internal
          websites that addresses the need to consider export controls during visits or
          assignments by foreign nationals. LLNL anticipated making such guidance
          available electronically in May 1999.

          We had concerns, however, with several aspects of the deemed export
          license process. For example, we found that neither Commerce guidance
          (as promulgated in the EAR) nor Energy guidance was clear regarding
          when a deemed export license would be required for an assignment
          involving a foreign national. We also found that: (1) the processes at the
          laboratories for reviewing foreign national assignees generally rely on the
          host of the foreign national assignee to determine whether there are export
          concerns associated with the assignment; (2) several hosts were not aware
          of, or did not understand, the requirements for deemed export licenses; and
          (3) several hosts did not appear to appropriately exercise their host
          responsibilities. In addition, as a result of our review, we are concerned
          that there does not appear to be an organization that has management
          responsibility for the deemed export license process within Energy.

          By memorandum dated March 16, 1999, the Inspector General advised the
          Under Secretary, who was the Acting Deputy Secretary, of our concerns
          regarding deemed exports. Based on direction from the Under Secretary,
          Energy officials requested a meeting on this subject, which was convened
          on April 2, 1999. The Energy officials indicated that actions would be
          initiated to address the concerns that we had identified.

          Our findings are consistent with the General Accounting Office (GAO),
          which in September 1997 concluded that Energy lacked clear criteria for
          identifying visits by foreign nationals that involve sensitive subjects. GAO
          did not specifically consider whether Energy should be obtaining export
          licenses for these visits. However, GAO recommended that Energy require



          4
            For purposes of this review, we did not address the issue of whether
          U.S. scientists traveling abroad might require an export license under
          certain circumstances.

Page 21                                                              Details of
                     experts with appropriate technical backgrounds, such as laboratory
                     individuals involved in export control issues, to independently review the
                     subjects of visits by foreign nationals. Similarly, a July 1998 study
                     conducted by Energy’s Office of Counterintelligence (CN) reviewed the
                     process used by Energy facilities to vet their foreign national visitors and
                     assignees and reviewed the degree of counterintelligence involvement in this
                     process. The CN study found that the lack of understanding regarding
                     deemed exports had both legal and counterintelligence implications.
                     According to the study, given the high number of foreign visitors to the
                     laboratories, and the visitor’s relatively free access to areas where high
                     performance computers are located, one might expect that there would be a
                     number of applications for deemed export licenses.

Guidance On Deemed   We found that the EAR, the relevant Energy order, and the
Exports Not Clear    guidance issued by the NTSP Division do not clearly explain when a
                     deemed export license is required for a foreign national assignment.
                     Also, based on our discussions with Energy officials and Energy
                     laboratory personnel, it appeared to us that there is a lack of
                     understanding regarding if and when deemed export licenses are
                     required.

                                          EAR Difficult to Interpret

                     The Energy officials who we interviewed contended that the deemed
                     export provisions in the EAR are difficult to interpret. Our review
                     and analysis of the EAR confirmed that, in our judgement, the EAR
                     provisions lacked clarity. In our view, due to the ambiguity of the
                     EAR language, a reader could conclude, for example, that an export
                     license is not required for research conducted by Energy laboratories
                     and Federally Funded Research and Development Centers
                     (FFRDCs). Virtually all of the Energy laboratories have been
                     designated as FFRDCs. However, we concluded that a blanket
                     exemption for work at FFRDCs was probably not intended. In
                     general, the restrictions in the EAR regarding deemed exports do
                     not apply to publicly available technology and software that arise
                     during, or result from, “fundamental research.” Section 734.8 of the
                     EAR defines fundamental research as basic or applied research in
                     science and engineering, where the resulting information is ordinarily
                     published and shared broadly within the scientific community. The
                     EAR further states that research conducted by scientists or
                     engineers working for a Federal agency or FFRDC may be
                     designated as



Page 22                                                                       Details of
          “fundamental research” within any appropriate system devised by
          the agency or the FFRDC to control the release of information by
          such scientists and engineers.

          Energy has not further defined fundamental research. Also, Energy
          scientists are expected to determine when to assert restrictions for
          proprietary or national security reasons, which is categorized as “a matter of
          judgment.” The following examples illustrate the difficulties experienced by
          individuals in interpreting the deemed export requirements in the EAR.

          • A contractor attorney at LLNL said that laboratory representatives
             might not be applying for many deemed export licenses because the
             EAR guidance is vague, especially where it interplays with notions of
             fundamental research and publicly available information. He said that
             their classification office and the laboratory employees routinely
             struggle to try to determine if and when a deemed export license might
             be required.

          • An export compliance manager at ORNL said that he sends a
             letter to all hosts of foreign nationals. The letter contains the
             statement that “No license is required for a Federal agency or a
             Federally Funded Research and Development Center (FFRDC),”
             which reflects language in the EAR. When asked whether this
             statement meant that none of the scientists that worked at
             ORNL needed to apply for a deemed export license for foreign
             national assignments involving research activities, he said that he
             was not sure what the statement meant.

          We believe that additional guidance from Commerce is required regarding
          the circumstances under which a foreign national’s visit or assignment
          would require an export license.

          We recommend that the Assistant Secretary for Nonproliferation and
          National Security:

          3. Coordinate with Commerce to obtain guidance regarding when a visit or
             assignment by a foreign national would require an export license.




Page 23                                       Details of Finding/Recommendation
                                    Energy Order Not Clear

          We found that the Energy order regarding assignments of foreign nationals
          also is not clear on when an export license may be necessary in conjunction
          with a foreign national assignment. DOE Order 1240.2B,
          “UNCLASSIFIED VISITS AND ASSIGNMENTS BY FOREIGN
          NATIONALS,” dated September 3, 1992, contains provisions for visits and
          assignments by foreign nationals to Energy facilities. The Order defines
          “Export Controlled Information (ECI)” and states that some sensitive
          subjects are controlled as ECI under U.S. laws and regulations. However,
          the Order does not explicitly state that the Energy host might be required to
          apply for a deemed export license in conjunction with a foreign national’s
          assignment, nor does the Order prescribe circumstances that would exclude
          research activities from the requirements of the EAR.

                                  Energy Guidelines Not Clear

          We found that guidance issued by the NTSP Division does not clearly state
          the requirement for an export license for Energy-sponsored activities and, in
          our view, could give the impression that while a private sector entity would
          require an export license for certain activities, Energy may not.

          In February 1997, the NTSP Division published a document
          titled “GUIDELINES ON EXPORT CONTROL AND
          NONPROLIFERATION.” These guidelines establish policy and
          procedures for transfers by Energy of unclassified equipment, materials, and
          information that could adversely affect U.S. nuclear nonproliferation
          objectives or national security. According to an NTSP Division official,
          these guidelines have been widely distributed throughout Energy.
          However, the requirement for a deemed export license for Energy-
          sponsored activities is not clearly stated. Also, the language in the
          guidelines could give the impression that, while the private sector would
          need an export license, Energy would not. For example, the guidelines state
          that “DOE-sponsored activities often entail the transfer abroad of technical
          information, and sometimes equipment and materials. Private sector export
          of such items would be subject to U.S. Government export control review
          and approval; lack of an export control review and approval process for
          DOE-sponsored actions could defeat the intent of the NPT [Non-
          proliferation Treaty], U.S. laws and regulations, and U.S. international
          commitments.”




Page 24                                                            Details of
                      We found that the processes at the laboratories for reviewing assignments of
Possible Management   foreign nationals generally rely on the host of the foreign national assignee
Control Weaknesses    to determine whether there are export concerns associated with the
Identified            assignment. We believe that the reliance on the host to determine whether
                      an export license is required for a foreign national assignment is problematic
                      because we found several hosts who were not aware of, or did not
                      understand the requirements for deemed export licenses and several hosts
                      who did not appear to appropriately exercise their host responsibilities.

                      For example, the form used at ORNL for approval of foreign visits and
                      assignments (DOE Form IA-473, “Request for Foreign National
                      Unclassified Visit or Assignment”) requires the applicant (host) to indicate
                      whether the assignment will result in the disclosure of technical data other
                      than that allowed by the general export license. We found, however, that 13
                      of the 17 hosts we interviewed said that they were not responsible for
                      making this determination. In addition, when asked who certifies that no
                      license is required, four of the 17 hosts said that they did not know or were
                      not sure.

                      Also, five of the 17 hosts that we interviewed at ORNL said that the six
                      foreign nationals they were hosting were affiliated with a nuclear facility or
                      nuclear end-user in their home countries. However, none of these hosts had
                      considered applying for deemed export licenses. A limited review of
                      information on the DOE Form IA-473 by Energy contractor technical
                      analysts, who review export license applications for Energy, indicated that
                      export licenses might have been required for two of these foreign nationals
                      because they were affiliated with nuclear end-users in their native countries.

                      Additionally, a security specialist at LANL said because no one is an expert
                      in every technical area, LANL relies on the hosts to determine if a deemed
                      export license is required for every foreign national visitor or assignee who
                      comes to the laboratory. However, nine of the 14 hosts who we
                      interviewed contended that they were not responsible for making this
                      determination. We were not able to reconcile this inconsistency.


                      We found a lack of understanding by some hosts of the requirements for




Page 25                                                                         Details of
                deemed export licenses. We also found that other hosts did not appear to
Hosts Did Not   appropriately exercise their host responsibilities.
Understand
Requirements    For example, hosts at LLNL had received memoranda regarding their
                security responsibilities pertaining to foreign national assignments. The
                memoranda reminded the hosts that access to Export Controlled
                Information must be strictly controlled. However, two of the eight hosts
                we interviewed said that they never received guidance on possible export
                control issues relating to the foreign nationals they were hosting.

                Also, a LANL security specialist said that hosts are made aware of their
                responsibilities to review possible export issues for every visitor or assignee.
                However, only seven of the 14 hosts that we interviewed said they had
                received guidance related to export controls in conjunction with hosting
                foreign nationals. An additional host said he had received export guidance
                twenty years ago.

                In addition, one host at SNL-Albuquerque said that the request for the
                foreign national he hosted stated that the individual might have access to
                software that was export controlled. The host explained that
                counterintelligence representatives reviewed the request, but a
                determination was never made regarding whether the software was, in fact,
                controlled.

                We reviewed whether hosts appropriately adhered to Energy’s policies for
                hosting unclassified assignments by foreign nationals. One ORNL
                contractor said that he was listed as the host of a Chinese national assignee,
                but that another Chinese national was the actual host. The contractor said
                he was the host of record because of the requirement that the host should be
                a U.S. citizen.

                Also, another ORNL contractor host said that his name is officially assigned
                as the host for many visitors. He said, however, that he does not actually
                know them all.

                In addition, one LLNL contractor who hosted an Indian national assignee
                said that a revision to the laboratory’s policy required the laboratory
                director to approve all requests to host Indian nationals. He said, therefore,
                that he asked the Indian national to leave. The Indian national returned to
                the U.S. university where he was employed. However, the host said that he
                planned to send a laboratory employee to the university to collaborate with
                the Indian national because this would be easier than trying to get approval
                for the Indian national to work at the laboratory.

                We could not determine which Energy organization, if any, has management

Page 26                                                                    Details of
                           responsibility for the deemed export licensing process.
Program Management
Responsibility Not Clear   DOE Order 1240.2B assigns several responsibilities in the area of export
                           controls to the NTSP Division. For example, the NTSP Division has review
                           and concurrence responsibility for visits by foreign nationals. However, the
                           NTSP Division does not review and concur on visits and assignments to
                           non-security areas that do not involve sensitive subjects. The NTSP
                           Division also develops export control policy and guidance that is widely
                           disseminated throughout Energy. In addition, the NTSP Division provides
                           awareness seminars for Energy employees. In July 1996, the then Director,
                           Office of Nonproliferation and National Security, issued guidance on access
                           to export controlled information by foreign nationals that stated that
                           personnel familiar with export control regulations should be consulted
                           routinely when determining what access to technology can be afforded
                           foreign visitors. However, the NTSP Division Director said that the NTSP
                           Division does not have an oversight role to ensure that Energy sites and
                           contractors are adhering to export control requirements.

                           We found that, at the time of our review, export license applications were
                           not submitted by hosts for certain foreign national assignments, even though
Some Foreign National      an export license may have been required because of the information being
Assignments May Have       accessed, the individual’s citizenship, or the individual’s employer.
Required an Export
License                    We selected a small, judgmental sample of the documentation processed for
                           proposed assignments of foreign nationals to LANL, LLNL, ORNL, and
                           SNL-Albuquerque during calendar year 1998. We limited our sample to
                           foreign nationals from China, India, Iran, Iraq and Russia. We then
                           provided Energy analysts, who are involved in reviewing export license
                           applications, with the documentation regarding these proposed assignments.
                           The documentation included the citizenship of the foreign national assignee,
                           the assignee’s employer, and the purpose or justification for the assignment.
                           The analysts concluded that export licenses might have been required by the
                           Energy hosts for certain of the assignees.

                           For example, at ORNL, three of the 20 foreign nationals might have had
                           access to technology that is covered under specific export commodity
                           control numbers. Two other foreign nationals at ORNL had affiliations
                           with nuclear end-users in their native country. Also, research activities by
                           four other foreign nationals at ORNL might have involved more than basic
                           research.


                           At LLNL, one of the foreign nationals was involved in two
                           projects – a high-power laser for Extreme Ultraviolet Lithography,


Page 27                                                                              Details of
          which has potential application to advances in the semiconductor
          industry, and the development of a high-energy laser for the U.S.
          Army’s missile defense program. In addition, another foreign
          national at LLNL was involved in discussions about laser optics and
          development of solid state lasers, which might have exposed the
          individual to export-controlled technology.

          At this time, Energy analysts have not completed their reviews of our
          samples from SNL-Albuquerque and LANL. However, we noted that
          export licenses might have been required for six foreign nationals in our
          sample at LANL because of their affiliations with nuclear end-users in their
          home country.

          Based on the above, we concluded that there are sufficient indicators of
          possible problems with Energy’s implementation of the deemed export
          licensing process to warrant a review by Energy officials.

          We recommend that the Under Secretary:

          4. Assure that the Energy task group established to review and resolve
             possible issues associated with Energy’s deemed export process,
             addresses these issues as expeditiously as possible.


          In 1993, as part of the interagency export license process review by the
          Offices of Inspector General of Commerce, Defense, Energy and State, we




Page 28                                      Details of Finding/Recommendation
Additional Actions Needed on Prior Recommendations
                   issued a report on Energy’s export licensing process for dual-use and
                   munitions commodities subject to nuclear nonproliferation controls. The
                   report, titled “Inspection of the Department’s Export Licensing Process for
                   Dual-use and Munitions Commodities,” DOE/IG-0331, contained
                   recommendations for corrective actions to improve Energy’s process. As
                   part of our current inspection, we reviewed the actions taken by Energy in
                   response to our previous recommendations to determine the adequacy of
                   the corrective actions. Energy officials had previously reported that
                   corrective actions had been completed. We found that Energy has
                   implemented the corrective actions within its control regarding most
                   recommendations. However, certain recommendations may require
                   additional review or action by Energy, or interagency coordination.

                   Five recommendations were adequately resolved by the implementation of
                   PINS:

Several Prior      Recommendation 1 (1993 Report): Review and update records maintained
Recommendations    by the Export Control Operations Division (now the NTSP Division) to
Resolved by PINS   ensure compliance with Energy records management directives and
                   provisions of the Export Administration Act of 1979, as amended.

                   Recommendation 2 (1993 Report): Ensure that the Records Inventory
                   Disposition Schedule complies with the provisions of the Export
                   Administration Act of 1979, as amended, regarding records retention.

                   Recommendation 3 (1993 Report): Ensure that records are developed and
                   maintained to document the Export Control Operations Division's factual
                   and analytical bases for providing Commerce advice, recommendations, and
                   decisions on export cases.

                   Recommendation 6 (1993 Report): Ensure timely completion of the
                   fielding of PINS at the Energy national laboratories to allow them access
                   to export case information in order to assist in Energy's processing of
                   export cases.

                   Recommendation 11 (1993 Report): Coordinate with Commerce to
                   develop and implement procedures to ensure that export license application
                   information in the ECASS data base maintained by Commerce and the
                   Energy Information System data base (now a part of PINS) maintained by
                   Energy are reconciled on a periodic basis.


                   One recommendation was adequately addressed by the development of
                   procedural manuals.


Page 29                                                                    Details of
One Recommendation   Recommendation 4 (1993 Report): Update the procedures manual titled
Addressed By Other   "Procedures/ Policies United States Nuclear Export Control,” and ensure
Action               the manual is used by analysts when processing export cases.

                     This recommendation was addressed by the development of new procedural
                     manuals that NTSP Division analysts can use for references. These include
                     “A Guide to Nuclear Export Controls” and the “Inspection Guidebook for
                     the Nuclear Suppliers Group Dual-Use Annex.”

                     The remaining five recommendations require additional corrective actions.
                     We recognize that certain of these recommendations will require
                     interagency coordination to assure appropriate implementation of corrective
Several              actions. However, in view of the significance of these issues, Energy should
Recommendations      initiate actions as soon as practicable for Recommendations 8, 9, and 10.
Require Additional
Actions              Recommendation 5 (1993 Report): Assess the adequacy of the
                     staffing level in the Export Control Operations Division (ECOD) for
                     processing nuclear dual-use export cases.

                     The NTSP Division (formerly the ECOD) has three analysts to
                     process license applications. According to the Division Director,
                     staffing is inadequate because her office has experienced an increase
                     in tasks, and case levels have increased in the last few years, with
                     most cases requiring significant analytical work. She said, for
                     example, her staff has been receiving additional taskings regarding
                     commercialization of technologies, which must be reviewed for any
                     proliferation concerns before Energy releases the technologies. She
                     also said that her staff has been working with property managers
                     across the complex to ensure that export controls have been
                     addressed before the property is processed as surplus property. She
                     said that she will attempt to hire one additional analyst to process
                     license applications. We concluded that a review of the NTSP
                     Division workload should be conducted to determine the
                     appropriate level of staffing.

                     We recommend that the Assistant Secretary for Nonproliferation
                     and National Security:




Page 30                                                                       Details of
          5. Conduct a review, in coordination with the Director, Office of
             Management and Administration, of the NTSP Division
             workload to determine the appropriate staffing level.

          6. Ensure that, if the workload review identifies a requirement for
             increased staffing, actions are initiated to provide the NTSP
             Division with the appropriate level of staff.

          Recommendation 7 (1993 Report): Coordinate with the Office of
          Intelligence and the Energy National Laboratories to ensure that
          Energy's intelligence capability is being fully utilized in the
          processing of export cases.

          Prior to initiating this review, it came to our attention that there was
          an unresolved issue regarding access to export-related information
          (referred to as 12(c) information). The NTSP Division Director
          said that the Office of Intelligence provides excellent support to the
          NTSP Division; however, the issue of access to 12(c) information
          remains unresolved. In a memorandum dated March 2, 1998, we
          requested the Office of General Counsel review the possible conflict
          between the requirements of E.O. 12333, “United States
          Intelligence Activities,” and the requirements to protect 12(c)
          information. The Office of General Counsel has not yet issued a
          written legal opinion.

          We recommend that the General Counsel:

          7. Complete the review to determine whether a possible conflict
             exists between E.O. 12333 and the requirements to protect
             12(c) information.

          8. Issue a written legal opinion concerning whether Intelligence
             officials should have unrestricted access to 12(c) information
             maintained by Energy.

          Another NTSP Division official was not satisfied with the support
          provided by the Office of Intelligence. He said that instead of
          providing the NTSP Division with “raw” intelligence data, the
          intelligence analysts routinely write an abstract from the raw
          intelligence data and provide the abstract to the NTSP Division


          analysts. He said the access to raw intelligence data could enhance
          the work of the NTSP Division. For example, at interagency
          meetings, NTSP Division officials may take a position based on the

Page 31                                      Details of Finding/Recommendations
          intelligence abstract, while another agency may have more complete
          intelligence data supporting the opposing position. Also, the Office
          of Intelligence insistence on preparing an abstract of the raw
          intelligence delays the timeliness of the receipt of such data. Finally,
          he said that State, which chairs the Nuclear Export Violators
          Working Group, provides an agenda to Energy prior to scheduled
          meetings that cites relevant raw intelligence reports. According to
          the NTSP Division analyst, Office of Intelligence officials will not
          provide NTSP Division analysts with access to the raw intelligence
          reports, which are classified above the SECRET level. Therefore,
          an NTSP Division official must travel to State to review relevant
          intelligence information for the meetings. The then Deputy
          Director, Office of Intelligence, advised us that he believed that the
          Office of Intelligence is prohibited from releasing raw intelligence
          data due to CIA requirements to protect sources and methods.

          We recommend that the Assistant Secretary for Nonproliferation
          and National Security:

          9. In coordination with the Director, Office of Intelligence, ensure
             that the issue of access to intelligence information required to
             support NTSP Division export license activities is resolved.

          Recommendation 8 (1993 Report): Coordinate with Commerce to ensure
          access by Energy to information within Commerce regarding the final
          disposition of export cases and to develop guidelines for Energy's access to
          the information, if possible.

          In our 1993 report, we defined “final disposition” as approval or denial of
          license applications and the purchase and/or shipment of commodities.
          Energy currently receives information regarding the approval or denial of an
          export license application referred by Commerce to Energy. However,
          Energy does not receive information from Commerce regarding whether the
          commodity was actually purchased and/or shipped. The U.S. Customs
          Service (Customs) provides this information to Commerce, but Energy does
          not have access to the information. We concluded that Energy officials
          should initiate action to obtain this information from Commerce.

          We recommend that the Assistant Secretary for Nonproliferation and
          National Security:

          10. Coordinate with Commerce to ensure access by Energy to information




Page 32                                      Details of Finding/Recommendation
              within Commerce regarding the final disposition of export cases and
              develop guidelines for Energy’s access to the information.

          Recommendation 9 (1993 Report): Coordinate with State to ensure access
          by Energy to information maintained by State regarding final disposition of
          munitions export cases and develop guidelines for Energy's access to the
          information.

          State currently only shares this type of information with Defense.
          Therefore, Energy is not notified of the final disposition of munitions cases
          and Energy NTSP Division analysts do not know whether the applications
          they review are approved or disapproved. We concluded that Energy
          officials should initiate action to obtain this information from State.

          We recommend that the Assistant Secretary for Nonproliferation and
          National Security:

          11. Coordinate with State to ensure access by Energy to information
              maintained by State regarding the final disposition of munitions cases
              and develop guidelines for Energy’s access to the information.

          Recommendation 10 (1993 Report): Ensure that Los Alamos National
          Laboratory completes its plan to obtain licensing decision information from
          Commerce.

          As discussed above, Commerce does not provide the information it
          receives from Customs to Energy. An NTSP Division official said that
          Commerce was developing the Automated Export System (AES), which
          was intended to show the final disposition of exported commodities that
          were licensed by Commerce. However, the official did not know the status
          of this initiative. We concluded that Energy officials should seek access to
          the information in AES when the system becomes operational.

          We recommend that the Assistant Secretary for Nonproliferation and
          National Security:

          12. Coordinate with Commerce to obtain access for Energy to
              information in the AES when the system becomes operational.
          Management concurred with all recommendations in our report.

          By memorandum dated May 6, 1999, the Assistant Secretary for
          Nonproliferation and National Security provided management’s comments
          to our draft report. According to the Assistant Secretary, her comments


Page 33                                      Details of Finding/Recommendations
MANAGEMENT   included, as appropriate, comments by the Office of Defense Programs and
COMMENTS     the Office of Science.

             The Assistant Secretary concurred with 11 of the 12 recommendations in
             our draft report and identified specific actions to implement the
             recommendations. However, she did not concur with Recommendation 2,
             which was to ensure that PINS is modified to permit the capture of all
             Commerce comments concerning an export license application. According
             to the Assistant Secretary, the problem was the receipt of truncated
             comments from Commerce. The PINS memory space for the “DOC
             Comments” field was modified in April 1998, and no comments have
             exceeded the current memory space. She stated that Energy believes that
             the problem of truncated comments has been corrected by Commerce.

             By memorandum dated May 14, 1999, the Director, NTSP Division,
             suggested a revision to Recommendation 2 to address this matter.
             Therefore, we have revised Recommendation 2 in our final report.

             The following is a summary of several key actions by the Department that
             were identified by the Assistant Secretary in her management comments.
             [See Appendix C for management’s complete comments.]

             • The Under Secretary formed an export control task force with
                representatives from the Secretary’s office and the Offices of
                Nonproliferation and National Security, Counterintelligence, General
                Counsel, Defense Programs, and Science. The task force is reviewing
                export control issues relating to Energy facilities, including deemed
                exports.

             • The Under Secretary raised the issue of deemed exports at a meeting
                with Energy laboratory directors.

             • The task force has begun a dialogue with Commerce over the issue of
                deemed exports, received some limited additional guidance, and intends
                to use this mechanism to deal with issues as they arise.


             • The February 1997 Guidelines on Export Control and Nonproliferation
                are being updated and will, among other things, clarify requirements on
                deemed exports.




Page 34                                                    Management Comments
                     • Energy is redrafting its policy with respect to unclassified foreign visits.
                        The new policy will clarify where export control review responsibility
                        lies between Headquarters and Energy facilities and ensure that
                        consideration of export license requirements is part of the visits and
                        assignments process.

                     • The Office of the Chief Financial Officer is examining its procedures for
                        processing foreign travel applications. The procedures will provide that
                        export license issues be considered as part of the application process.

                     • In addition to revising existing policies and procedures, a one page
                        summary guide has been drafted for hosts of foreign nationals and for
                        Energy foreign travelers.

                     • Energy plans additional efforts to educate Energy personnel on the issue
                        of export control. These include bringing Commerce experts to the
                        annual meeting of the Energy contractors’Export Control Coordinators
                        Organization, participating in video conferences, and recommending
                        that the Secretary and Under Secretary raise the level of awareness of
                        this issue.

                     Management’s comments have been incorporated into our report where
                     appropriate.

                     We believe the actions by management are responsive to our
                     recommendations.




INSPECTOR COMMENTS




Page 35                                                   Management/Inspector Comments
                                                                                    Appendix A

Scope and Methodology   We conducted the field work portion of our review during the period
                        October 1998 to April 1999, at the Department of Energy (Energy)
                        Headquarters and four of the Department’s laboratories; Lawrence
                        Livermore National Laboratory (LLNL), Los Alamos National Laboratory
                        (LANL), Oak Ridge National Laboratory (ORNL), and Sandia National
                        Laboratory (SNL). At Energy Headquarters, we interviewed officials in the
                        Nuclear Transfer and Supplier Policy Division, which was the principal
                        office within the Department for export control activities, and officials in the
                        Office of Intelligence. We also attended briefings provided by
                        representatives from the Department’s of Commerce, Defense, Energy,
                        State, Treasury and the Central Intelligence Agency regarding their
                        agencies’export license activities and we conducted interviews of officials
                        at those agencies, as appropriate. We interviewed Energy Operations
                        Office personnel and laboratory contractor officials who were involved in
                        the review of export license applications and who were responsible for
                        managing and operating the Energy’s Proliferation Information Network
                        System (PINS). We also interviewed hosts of foreign national assignees at
                        Energy laboratories.

                        We reviewed the applicable laws, Executive orders, regulations and
                        Departmental guidance regarding the export license process. We also
                        reviewed files, both electronic and hardcopy, pertaining to the management
                        and administration of the Department’s export license activities.

                        In addition, we analyzed data from samples of export license cases and
                        samples of applications for assignments of foreign nationals to selected
                        Energy laboratories. These samples involved:

                        • A sample of 60 randomly selected export license cases that were
                           referred by Commerce to Energy during the period January 1, 1998, to
                           June 30, 1998. The cases were referred to Energy either because the
                           commodity was designated as a nuclear dual-use item, the commodity
                           was intended for a nuclear end-use or nuclear end-user, or the
                           application was escalated to the Operating Committee.

                        • An additional sample of 60 randomly selected export license cases that
                           were not referred by Commerce to DOE during the period January 1,
                           1998, to June 30, 1998.




Page 36                                                                   Scope and Methodology
                                                                    Appendix A

          • Samples from LANL, LLNL, ORNL, and SNL of applications for
             foreign nationals from sensitive countries for assignments to the
             laboratories.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Page 37                                                  Scope and Methodology
                                                                                            Appendix B
                         QUESTIONS FROM THE SENATE GOVERNMENTAL
                               AFFAIRS COMMITTEE CHAIRMAN


     1. Please examine whether current, relevant statutory and regulatory authority contains
     inconsistencies or ambiguities regarding the licensing of dual-use and munitions commodities, and the
     effect of any such inconsistencies and ambiguities. (See page 12)

     2. Please examine whether Executive Order 12981 (1995) as implemented is consistent with the
     objectives of the Export Administration Act and other relevant statutory and regulatory authority.
     (See page 12)

     3. Please determine if there is a continued lack of interagency accord, as stated in your 1993
     interagency report (at page 13), regarding whether the Commerce Department is properly referring
     export license applications (including supporting documentation) out for review by the other agencies.
     (See page 13)

     4. Please determine if the interagency dispute resolution (or “escalation”) process for appealing
     disputed license applications allows officials from dissenting agencies a meaningful opportunity to seek
     review of such applications, and assess why this process is so seldom used.
     (See page 14)

     5. Please review whether the current dual-use licensing process adequately takes account of the
     cumulative affect of technology transfers resulting from the export of munitions and dual-use items,
     and the decontrol of munitions commodities. (See page 14)

     6. Please review whether the current munitions licensing process adequately takes account of the
     cumulative affect of technology transfers resulting from the export of munitions and dual-use items,
     and the decontrol of munitions commodities. (See page 14)

     7. Please determine whether license applications are being properly referred for comment (with
     sufficient time for responsible review) to the military services, the intelligence community, and other
     relevant groups (the “recipient groups”) by the Defense Department and other agencies. Please
     consider in particular numerical trends in the frequency of such referrals, trends in the types of
     applications referred, trends in the nature of the taskings made in connection with the referrals, and the
     perceptions of officials at the recipient groups. (Not applicable to Energy)

     8. Please determine whether license review officials at each of the agencies are provided sufficient
     training and guidance relevant for reviewing license applications, and whether more formal training
     and guidance is warranted. (See page 15)




Page 38
     9. Please review the adequacy of the databases used in the licensing process, such as the Defense
     Department’s FORDTIS, paying particular attention to whether such databases contain complete,
     accurate, consistent, and secure information about dual-use and munitions export applications. (See
     page 15)

     10. In his testimony, [a witness] described instances where licensing recommendations he entered on
     FORDTIS were later changed without his consent or knowledge. Please examine those charges, and
     assess whether such problems exist at your agencies. (See page 16)

     11. Please determine whether license review officials are being pressured improperly by their
     superiors to issue or change specific recommendations on license applications. (See page 17)

     12. Please determine whether our government still uses foreign nationals to conduct either pre-license
     or post-shipment licensing activities and whether such a practice is advisable. (Not applicable to
     Energy)

     13. Please determine whether the agency licensing process leaves a reliable audit trail for assessing
     licensing performance. (See page 17)

     14. Please describe the procedures used by agencies to ensure compliance with conditions placed on
     export licenses (e.g., no retransfers without U.S. consent, no replications, and peaceful use
     assurances), and assess the adequacy and effectiveness of such procedures. (Not applicable to
     Energy)




Page 39
                                                                                             Appendix C
                                            Department of Energy
                                              Washington, DC 20585

                                                    May 6, 1999


     MEMORANDUM FOR:                SANDRA L. SCHNEIDER

     FROM:                          ROSE GOTTEMOELLER
                                    ASSISTANT SECRETARY FOR
                                    NONPROLIFERATION AND NATIONAL SECURITY

     SUBJECT:                       COMMENTS ON INSPECTOR GENERAL’S EXPORT
                                    LICENSING PROCESS DRAFT REPORT



     The Office of the Assistant Secretary for Nonproliferation and National Security appreciates the

     opportunity to have reviewed the draft report on the export licensing process for dual-use and

     munitions commodities. The recommendations of the Inspector General will enhance the

     Department’s export license processing as well as ensure that the Department’s position on each

     license application is sound and defensible. Furthermore, the recommendations will ensure that

     the Department uses all its resources, including policy, technical, and intelligence efficiently

     and effectively. During our review of the draft report, we received comments from the Office of

     Defense Programs and the Office of Science and have addressed their comments as appropriate.

     Our general comments and the specific comments regarding the recommendations are attached.


     Attachment




Page 40                                                             Management Comments On Export
                                                                    Licensing Draft Report
                                      Comments on
                                     IG Draft Report
                        Inspection of the Department of Energy’s
                         Export Licensing Process For Dual-Use
                              and Munitions Commodities


General Comments

We appreciate the careful review the Inspector General (IG) has given to the Department of
Energy (DOE) export control activities and are gratified by the findings indicating the
strength of this program.

Your specific recommendations will be addressed in detail farther on but we would like to
summarize some key actions that have been taken as follows:

•      Formation of an Export Control Task Force. The Under Secretary formed an export
       control task force with representatives from the Secretary’s office, and the Offices of
       Nonproliferation and National Security (NN), Counterintelligence (CN), General
       Counsel (GC), Defense Programs (DP) and Science (SC). This group is reviewing
       export control issues relating to DOE facilities, including deemed exports.

•      Meeting with Lab Directors. Under Secretary Moniz raised the issue of deemed
       exports at a meeting with DOE Lab Directors and the Inspector General explained his
       concerns.

•      Consultations with Commerce. The Task Force has begun a dialogue with the
       Department of Commerce (DOC) over the issue of deemed exports, received some
       limited additional guidance, and intends to use this mechanism to deal with issues as
       they arise.

•      Attendance at ACEP. Since the end of 1998, a Deputy Assistant Secretary level
       representative has attended meetings of the Advisory Committee on Export Policy
       (ACEP). Assistant Secretary Gottemoeller has attended meetings for extremely
       sensitive export cases. In a April 21, 1999, letter, Under Secretary Moniz confirmed
       to DOC that this practice would continue. DOC has stated that it satisfied with this
       arrangement.

•      Redrafting of Export Control Guidelines. NN is updating its February 1997 Guide-
       lines on Export Control and Nonproliferation. A draft has been sent to all Secretarial
       Offices for concurrence and should be circulated to DOE facilities soon. The new
       guidelines will, among other things, clarify requirements on deemed exports.
•      Redrafting of Foreign Visits and Assignments Policy. The Department is redrafting its
       policy with respect to unclassified foreign visits and assignments. The new policy will
       clarify where export control review responsibility lies between headquarters and DOE
       facilities and ensure that consideration of export license requirements is part of the visits
       and assignments process.

•      Updating Foreign Travel Procedures. The Office of the Chief Financial Officer is
       examining its procedures for processing foreign travel applications. The procedures will
       provide that export license issues be considered as part of the application process.

•      Drafting Additional Guidance. In addition to revisions of existing policies and
       procedures, NN has drafted one page summary guides for hosts of foreign nationals and
       for DOE foreign travelers. These will be circulated to DOE facilities at the same time
       that the revised Guidelines on Export Control and Nonproliferation are released.

•      Additional Educational Efforts. The Department plans additional efforts to educate DOE
       personnel on the issue of export control. These include bringing DOC experts to the
       annual meeting of the DOE contractors’Export Control Coordinators Organization,
       participating in video conferences, and recommending Dr. Moniz and Secretary
       Richardson raise the level of awareness of this issue.

The recommendations of the IG will enhance export license processing at DOE and will ensure
that DOE’s position on each license application is sound and defensible. Furthermore, the
recommendations will ensure that DOE has used all its resources, including policy, technical, and
intelligence efficiently and effectively.

Many of the issues discussed in the report have been under review for several years, requiring
effort on the part of DOE and incurring substantial costs. Resolving these issues would be
beneficial in terms of allocation of overall resources. In many cases, the full support of senior
management is necessary to achieve a successful resolution of issues identified in the report.

DOE is pleased that our automated export license processing system, the Proliferation
Information Network System (PINS), is considered exemplary. Considerable resources have
been allocated to this project, and most of the technical problems have been resolved. DOE
continues to improve the system.

DOE is concerned about the issues raised by the IG regarding transfers of export-controlled
technology to foreign nationals at DOE sites. As noted in the IG report and above, the
Secretary of Energy has established a task force to address export control issues associated with
transfer of technology to foreign nationals at DOE laboratories. The Nuclear Transfer and
Supplier Policy Division (NTSP) has been an integral part of this group and has provided the
group with extensive guidance on export control issues. However, DOE agrees with the IG that
clear guidance from the Department of Commerce on the “deemed export” issue is essential.
On page 7 of the draft report, the IG notes, “For some commodities on the Nuclear Referral List
[NRL], Energy has delegated to Commerce, through ‘Delegations of Authority’(DOAs), the
authority to process these commodities without referring the cases to Energy. These delegations
generally pertain to commodities that Energy determined they no longer need to review because
of recommendations that were made on previous similar export cases. The delegations are also
based on guidelines from the international Nuclear Suppliers Group [NSG], which may
recommend the easing of export controls on certain commodities.” These statements are
misleading. DOE has given DOC a DOA for commodities on the NRL not intended for a
nuclear end-use or nuclear end-user. DOE also has given DOC a DOA for commodities to NSG
members, because no license is required for items on the NRL to these countries. However, we
would note that some six months ago, NTSP requested that the national laboratories review
DOA cases to determine whether DOC was carrying out the delegations appropriately. We
found inconsistencies and have drafted a revised DOA to be sent to DOC in the near future.

There is a minor error on page 13 regarding reviews of audit trails on the electronic license
processing system. The IG report should clarify that the reviews occur at LANL. The Network
Encryption Server (NES) audit logs from all laboratories are reviewed bi-weekly by Los Alamos
National Laboratory (LANL). The NT server security log is monitored daily at LANL.

Finally, a seventh laboratory, Savannah River Site (SRS), has been added to the PINS network
to provide technical reviews of license applications. SRS should be added to the diagram on
page 6 of the IG draft report.


Comments on Recommendations

“We recommend that the Assistant Secretary for Nonproliferation and National
Security...”

IG Recommendation 1.

       Coordinate with Commerce to establish a more effective process to provide
       supporting documents or information to Energy.

Management Position

       Concur.

       DOE’s Nuclear Transfer and Supplier Policy Division (NTSP) has been working with the
       DOC on the issue of providing supporting documents for several years. The goal of
       NTSP is to have the supporting documents in our electronic case processing system so
       that the documents can be linked to the case throughout the case escalation process.
      NTSP has held many discussions with DOC management and technical experts on the
      issue of scanning the supporting documents into an electronic database. Currently,
      DOC’s electronic database of supporting documents is used for archival purposes only,
      and is maintained at an electronic bandwidth too narrow to allow DOE electronic
      systems to access the stored information. Therefore, NTSP has relied on DOC to send
      hardcopy documentation by courier to NTSP.

      NTSP will develop an internal system to electronically store scanned images of the
      hardcopy information received from DOC. The hardcopy information will be accessible
      to all license reviewers through hyperlinks to the case file, which in turn will be archived
      in DOE electronic files. NTSP estimates that this system will take two to three months
      to implement.

      DOE will request that DOC provide supporting documents to DOE on the same day that
      the case is electronically distributed, and to note in the case file that supporting
      documentation has been sent to DOE. We will strongly object to distribution of the case
      to the reviewing agencies prior to obtaining complete and full information from the
      applicant.


IG Recommendation 2.

      Ensure that PINS is modified to permit the capture of all Commerce comments
      concerning an export license application.

Management Position

      Non-concur.

      The truncated DOC comments were incorrectly identified as a problem with the DOE
      system. Prior to the 1998 upgrade of the PINS system, memory space for the DOC
      comments was unlimited. In April 1998, PINS was modified to allow 4 Gigabytes of
      memory space for the “DOC Comments” field. To date, no comment has exceeded this
      length. Comments truncated before reaching the 4 Gigabyte limit were coming to DOE
      from DOC in that form, but DOE believes that DOC has corrected the problem. DOE
      encourages the IG to address any further concerns to DOC.


IG Recommendation 3.

      Coordinate with Commerce to obtain guidance regarding when a visit or
      assignment by a foreign national would require an export license.
Management Position

      Concur.

      DOE has initiated discussions with DOC to obtain clear guidance on the need for export
      licenses for visits or assignments of foreign nationals to DOE laboratories. As a part of
      the previously-mentioned task force, DOE has undertaken discussions with both DOC
      legal and export licensing to ensure that DOE and all of its national laboratories and
      facilities are complying with all export laws and regulations, including the deemed export
      provisions. The Task Force dialogue with DOC has provided some limited additional
      guidance on the deemed exports issue thus far. The task force intends to use this
      mechanism to further address the deemed export issue.

      As noted, we also have invited DOC to speak on the issue of deemed exports at the
      annual meeting of the DOE contractors’Export Control Coordinators Organization
      (ECCO) in June. This will ensure that most DOE site personnel with responsibility for
      exports will have an opportunity to engage in a fruitful discussion of the matter.

      In addition, DOE will recommend to DOC that an interagency group be established to
      address this issue and to develop clear and comprehensive policy guidance regarding
      license requirements for use by U.S. industry, including U.S. Government laboratories
      and contractors. DOE also will recommend that the resulting guidance be reviewed and
      endorsed by the interagency Advisory Committee on Export Policy (ACEP).


IG Recommendation 4.

      Assure that the Energy task group established to review and resolve possible issues
      associated with Energy’s deemed export process, addresses these issues as
      expeditiously as possible.

Management Position

      Concur.

      Major steps have already been taken and others are in the immediate offing:

      •      As noted in the IG report, the Secretary of Energy has established a task force to
             address export control issues associated with transfer of technology to foreign
             nationals at DOE laboratories. On the task force are representatives from the
             Secretary’s office, NN, CN, DP, SC, and GC. This group has reviewed, and will
             continue to review, export control issues relating to DOE facilities, including the
             issue of deemed exports.
•   Under Secretary Moniz raised the issue of deemed exports with DOE Lab
    Directors at their last regularly scheduled meeting at headquarters. At Under
    Secretary Moniz’request, the Inspector General explained his concerns about
    deemed exports at this meeting.

•   NN is redrafting its February 1997 Guidelines on Export Control and
    Nonproliferation. The new edition, among other things, will make clear that
    DOE is subject to DOC, Department of State (DOS), and Nuclear Regulatory
    Commission (NRC) export control regulations just as is the private sector; it also
    will clarify procedures with respect to deemed exports. A new draft has been
    sent to all Secretarial Offices for concurrence and should be circulated to DOE
    facilities soon.

•   The Department is revising the DOE Order on visits and assignments of foreign
    nationals at DOE sites. NN has provided to Department officials preparing the
    revision extensive guidance regarding the protection of export controlled
    technology and has updated the Sensitive Subject List attached to the Order, and
    has stressed the need to obtain all required export licenses for foreign nationals at
    DOE sites. With respect to export controls, the new policy will clarify where
    responsibility lies between headquarters and DOE facilities, and ensure that the
    consideration of the need for an export license is part of the visits and
    assignments process.

•   The Office of the Chief Financial Officer is examining its procedures for
    processing foreign travel applications. With respect to export controls, the
    process will require consideration of export licensing issues as part of the
    application procedure.

•   In addition to revising the Guidelines on Export Control and Nonproliferation,
    NN has drafted brief one page summary guidance for hosts and others dealing
    with foreign nationals and for DOE personnel going abroad. These documents
    will be circulated to DOE facilities at the same time that the revised Guidelines on
    Export Control and Nonproliferation are released.

•   The Department plans additional efforts to educate DOE personnel on export
    control issues. These include bringing Department of Commerce experts to the
    annual meeting in June of the DOE contractors’Export Control Coordinators
    Organization, participating in video conferences, and recommending Dr. Moniz
    and Secretary Richardson raise the level of awareness of this issue.
IG Recommendation 5.

      Conduct a review, in coordination with the Director, Office of Management and
      Administration, of the NTSP Division workload to determine the appropriate
      staffing level.

Management Position

      Concur.

      Intensified DOE export licensing reviews will require increased resources. The
      Department is committed to providing the necessary funding and staff to ensure effective
      implementation of U.S. export control laws and regulations.


IG Recommendation 6.

      Ensure that, if the workload review identifies a requirement for increased staffing,
      actions are initiated to provide the NTSP Division with the appropriate level of
      staff.

Management Position

      Concur.

      It is important that if the review identifies the need for additional staff, action is taken
      immediately to adjust staffing levels. This will reduce DOE’s vulnerability across the
      board, including our ability to carry out essential international cooperative programs,
      such as those with Russia related to securing nuclear materials and reducing stockpiles of
      nuclear weapons


IG Recommendation 7 and 8. [We recommend that the General Counsel… ]

      7. Complete the review to determine whether a possible conflict exists between E.O.
      12333 and the requirements to protect 12(c) information.

      8. Issue a written legal opinion concerning whether Intelligence officials should
      have unrestricted access to 12(c) information maintained by Energy.
Management Position

      Concur.

      The Office of General Counsel plans to reexamine the questions raised in the
      recommendations to determine whether there is a conflict between Executive Order
      12333 and the confidentiality provision of the Export Administration Act, and the need
      for issuance of a legal opinion on access to 12(c) information.


IG Recommendation 9.

      In coordination with the Director, Office of Intelligence, ensure that the issue of
      access to intelligence information required to support NTSP Division export license
      activities is resolved.

Management Position

      Concur.

      Since the arrival of the current Director of the Office of Energy Intelligence (IN-1) in
      October 1998, intelligence support to NTSP has markedly improved. However, NN will
      continue to work with IN to improve further support to NTSP, including potential
      provision of an intelligence staff member devoted full-time to support NTSP functions.


IG Recommendation 10.

      Coordinate with Commerce to ensure access by Energy to information within
      Commerce regarding the final disposition of export cases and develop guidelines
      for Energy’s access to the information.

Management Position

      Concur.

      Information regarding final disposition of all cases from 1992 has been sent to DOE from
      DOC. When the latest update to the PINS system is on-line, this information will be
      entered into the archived case files. Thereafter, DOE will receive daily updates on final
      disposition of cases from DOC electronically. The update to PINS should be completed
      in May 1999.
IG Recommendation 11.

      Coordinate with State to ensure access by Energy to information maintained by
      State regarding the final disposition of munitions cases and develop guidelines for
      Energy’s access to the information.

Management Position

      Concur.

      Since all munitions cases are distributed for review by the Department of State (DOS) in
      hardcopy, and DOE has no access to the DOS electronic system, DOE will work with
      DOS to obtain the information via hardcopy. NN will address this issue with the
      appropriate management of DOS.


IG Recommendation 12.

      Coordinate with Commerce to obtain access for Energy to provide information into
      the AES when the system becomes operational.

Management Position

      Concur.

      The U.S. Customs Service is the lead agency for the development of an automated
      information sharing system, the Automated Export System (AES), which will address
      these concerns. DOE is involved as an interagency partner to receive export data from
      the Customs AES when it is implemented. Progress has been slow due to lack of
      dedicated resources to the AES at Customs and support from U.S. industry. We are
      confident that DOE will receive the information when it is made available electronically
      to Customs from industry, and we will modify the Export Information System (EIS)
      database in PINS to record the information at that time.
                                Department of Energy
                                 Washington, D.C. 20585

                                       May 14, 1999


MEMORANDUM FOR SANDY SCHNEIDER
               ASSISTANT INSPECTOR GENERAL FOR INSPECTIONS

FROM:                    TRISHA DEDIK
                         DIRECTOR
                         NUCLEAR TRANSFER AND SUPPLIER POLICY DIVISION
                         OFFICE OF ARMS CONTROL AND NONPROLIFERATION

SUBJECT:                 MODIFICATION ON RECOMMENDATION 2 OF THE
                         INSPECTOR GENERAL’S EXPORT LICENSING PROCESS
                         DRAFT REPORT

The truncated Department of Commerce (DOC) comments were incorrectly identified in the
IG report on export licensing as a problem with the Department of Energy (DOE) computer,
the Proliferation Information Network System (PINS). In fact, the problem was due to the
file transfer process used by DOC in electronically transmitting export applications to DOE.
Although the DOC export control computer system ECASS file contained the complete DOC
comment, the entire DOC comment was not transferred to DOE. NN recommends that rec-
ommendation 2 be changed to :

IG Recommendation 2.

Assistant Secretary for NN coordinate with Commerce to ensure that DOE receives all
Commerce comments concerning an export license application.

Management Position

       Concur.

       The truncated DOE comments were incorrectly identified as a problem with the
       DOE computer system. Around the April 1998 timeframe, DOC discovered that not
       all DOC comments were correctly being sent to DOE for uploading into PINS.
       Although the ECASS database contained the complete DOC comment, some
       comments were truncated by DOC during the data transfer process, which caused
       DOE to receive a truncated version of the comment. When DOC discovered the
       problem, they fixed it. In May 1998, DOE discovered that there was a new problem
       with the DOC comments. After discussions among the computer staffs, it was
       determined that the April DOC fix was causing a problem in PINS. DOE had been
                                                                                  2


unaware of the initial problem and fix that DOC had discovered and implemented.
The two staffs resolved the new problem and no truncations have occurred since that
time.

As a technical comment, PINS allows 2 gigabytes of storage for the "DOC
Comments" field (equivalent to more than 3 encyclopedias of data). To date, no com-
ment has exceeded this length. Previous to the new version of PINS, which was im-
plemented in April 1998, the "DOC comments" field was virtually unlimited.

If you have any other further questions, please contact Toli Welihozkiy (6-2155) or
Ed Fox (6-2144) of my staff.
                                                    IG Report No.__DOE/IG-0445__


                        CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness
of its products. We wish to make our reports as responsive as possible to our cus-
tomers' requirements, and therefore ask that you consider sharing your thoughts with
us. On the back of this form, you may suggest improvements to enhance the effec-
tiveness of future reports. Please include answers to the following questions if they
are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection
               would have been helpful to the reader in understanding this re-
               port?

       2.      What additional information related to findings and recommen-
               dations could have been included in this report to assist man-
               agement in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have
               taken on the issues discussed in this report which would have been
               helpful?

Please include your name and telephone number so that we may contact you should
we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization _____________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                      Office of Inspector General (IG-1)
                      U.S. Department of Energy
                      Washington, D.C. 20585
                      ATTN: Customer Relations
                                                                                  2


If you wish to discuss this report or your comments with a staff member of the Office
of Inspector General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
                  through the Internet at the following alternative address:


         Department of Energy Human Resources and Administration Home Page
                              http://www.hr.doe.gov/ig

             Your comments would be appreciated and can be provided on the
                    Customer Response Form attached to the report.

                            This report can be obtained from the
                                U.S. Department of Energy
                       Office of Scientific and Technical Information
                                        P.O. Box 62
                               Oak Ridge, Tennessee 37831
